No. 20-6772
IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER SPREITZ, Petitioner,
vs.
DAVID SHINN,
Director, Arizona Department of Corrections,
Rehabilitation & Reentry, Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

REPLY TO BRIEF IN OPPOSITION

Jon M. Sands
Federal Public Defender
District of Arizona
Timothy M. Gabrielsen*
Assistant Federal Public Defender
IL Bar No. 6187040
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310
(520) 879-7614 / (520) 622-6844 (facsimile)
tim_gabrielsen@fd.org
Counsel for Petitioner
*Counsel of Record for Petitioner

1

REPLY TO BRIEF IN OPPOSISION
Respondent leads in its Introduction and in its Reasons for Denying the Writ
with the suggestion that certiorari should be denied because the Ninth Circuit has
granted the writ as to Spreitz’s capital sentence conditioned on the State of Arizona’s
correction of constitutional error inflicted by the Arizona Supreme Court’s
employment of a causal nexus test in violation of Eddings v. Oklahoma, 455 U.S. 104
(1982), in refusing to give effect to Spreitz’s mitigating evidence in its de novo
independent review of aggravating and mitigating evidence in imposing the death
sentence on direct appeal. Brief in Opposition at 1, 9 (citing Spreitz v. Ryan, 916 F.3d
1262 (9th Cir. 2019)). To the extent Respondent suggests that the partial writ grant
by the Ninth Circuit moots the claims brought by Spreitz pursuant to Martinez v.
Ryan, 566 U.S. 1 (2012), that suggestion is misplaced.
This Court recently determined that an Arizona habeas petitioner for whom
the Ninth Circuit granted a conditional writ of habeas corpus as to a capital sentence
due to Eddings error is entitled to no more than post-conviction reweighing of
mitigating evidence presented at sentencing that occurred, in that case, more than
25 years earlier, and not the resentencing to which he would be entitled under Ring
v. Arizona, 536 U.S. 584 (2002), if the error correction necessarily reopened direct
review. McKinney v. Arizona, 140 S. Ct. 702, 707-09 (2020). The Arizona Supreme
Court again imposed a sentence of death on McKinney, State v. McKinney, 426 P.3d
1204 (Ariz. 2018), consistent with all other cases for which Eddings error was the
basis of a conditional writ grant by the Ninth Circuit and the Arizona Supreme

1

Court’s purported correction of that error. See State v. Poyson, 475 P.3d 293, 296
(Ariz. 2020) State v. Hedlund, 431 P.3d 181, 183-84 (Ariz. 2018); State v. Styers, 254
P.3d 1132, 1133 (Ariz. 2011). Contrary to the historical record of causal nexus
application later set forth in McKinney v. Ryan, 813 F.3d 798, 802-03 (9th Cir. 2015)
(en banc), cert. den. 137 S. Ct. 39 (2016), the Arizona Supreme Court, in the first of
the returned error correction cases, evinced the position that it failed to apply such a
test. Styers, 254 P.3d at 1135; id. at 1136 (Hurwitz, Vice Chief Judge, dissenting).
Thus, Respondent’s implication that certiorari should be denied because
Spreitz was otherwise the recipient of a writ grant by the Ninth Circuit as to his
death sentence is disingenuous. The Ninth Circuit recently stayed the district court’s
grant of the conditional writ on Eddings error where the district court explicitly
stated that it was not deciding the Martinez claim remanded by the Ninth Circuit
precisely because it was granting relief based on Eddings. See Doerr v. Ryan, No. 2099002 (9th Cir. Apr. 10, 2020), ECF No. 16 at 2. Doerr had argued that the district
court’s grant of relief based on Eddings could be illusory based on the fates that befell
all of the other Arizona petitioners to that point for whom the conditional writ was
granted based on Eddings error once they returned to the Arizona Supreme Court.
See Doerr, Ninth Cir. No. 20-99002, ECF No. 11, at 7 (Mar. 20, 2020).
Doerr further argued that his Martinez claim was not mooted by the
conditional writ grant because the district court failed to address the mitigating
evidence he developed in the district court in support of his claims that postconviction relief counsel rendered ineffective assistance that would serve as cause

2

and prejudice under Martinez to excuse the ineffective assistance of trial counsel
claim under Strickland v. Washington, 466 U.S. 668 (1984)—and that failure
undermined the reliability of Doerr’s death sentence demanded by the Eighth
Amendment. Doerr, Ninth Cir. ECF No. 11 at 7. In staying the writ based on Eddings
error and remanding, the Ninth Circuit determined that a ruling from the district
court on the Martinez claim “will assist this Court in the resolution of these appeals.”
Doerr Ninth Cir. ECF No. 16 at 2.
Here, the absence of any analysis of Spreitz’s Martinez remand motion,
including the ineffective assistance of counsel claims and supporting facts, similarly
implicates Eighth Amendment reliability concerns.

While Respondents cite the

holding of Martinez as sufficient to render de minimis Spreitz’s Question Presented
as to when remand to the district court is required, BIO at 9-10, Respondents ignore
the Martinez Court’s engagement with the facts Martinez proffered in support of his
procedurally defaulted successive state post-conviction petition claims, which
informed its analysis and conclusion that remand to the court of appeals was
required. 566 U.S. at 6-7, 18. The Ninth Circuit in turn remanded to the district
court for application, in the first instance, of this Court’s decision in Martinez. See
Martinez v. Ryan, 680 F.3d 1160 (9th Cir. 2012).
Spreitz submits on certiorari that his ingestion of cocaine in addition to his
consumption of vast quantities of alcohol in temporal proximity to the murder formed
the metabolite cocaethylene, which greatly exacerbated the impairment inter alia of
his cognitive functioning and impulse control caused by alcohol consumption alone

3

and would have proved the statutory mitigating factor that Spreitz could not conform
his conduct to the requirements of law. See A.R.S. § 13-703(G)(1). Cocaine ingestion
evident in a presentence report but which went uninvestigated by trial and postconviction counsel “fundamentally altered” the ineffective assistance of trial counsel
(“IATC”) claim Spreitz brought in his post-conviction relief (“PCR”) petition, which
rendered the IATC claim unexhausted and subject to Martinez cause and prejudice
analysis under Dickens v. Ryan, 740 F.3d 1302, 1319 (9th Cir. 2014) (en banc). The
underlying IATC claim is “substantial” for Martinez purposes. Martinez, 566 U.S. at
14. An amendment to Rule 32.1(h) of the Arizona Rules of Criminal Procedure,
effective January 1, 2020 (West), which restricts successive PCR petitions based on
new evidence to claims of innocence of the crime or non-eligibility for a sentence of
death, means that Spreitz will, in the absence of consideration of his Martinez claim,
lack a vehicle to demonstrate the unreliability of his death sentence based on the
failure of trial counsel to apprise the sentencing court of the hijacking of Spreitz’s
brain chemistry caused by cocaine ingestion and cocaethylene.
Respondent asserts that the uncontroverted expert opinions of Dr. Pablo
Stewart, M.D., an addiction medicine expert, and Dr. Paula Lundberg-Love. Ph.D., a
psychopharmacologist, as to the deleterious effects on brain function of cocaethylene
“do not materially change the mitigation profile before the sentencing judge or the
post-conviction judge” that was based solely on alcohol consumption and childhood
trauma. BIO at 14-15. Yet, Spreitz’s ingestion of alcohol and cocaine, and the effect
of their metabolite cocaethylene, would unquestionably have led to the conclusion

4

that Spreitz could not conform his conduct to the requirements of law under A.R.S.

13-703(G)(1) during his tragic encounter with the victim, a significant change to the
mitigation profile. See Appx. E-23 (Dr. Stewart), Appx. E-35 (Dr. Lundberg-Love).
Neither the sentencing court nor the Arizona Supreme Court on independent review

otherwise found the existence of the G(l) statutory mitigating factor. Respondent s
lay opinions must be set aside in favor of findings on a contested issue of fact made
by a court of first instance.

The Court should grant certiorari, vacate the Order of the Ninth Circuit in
which it denied Spreitz a Martinez remand and direct the Ninth Circuit to remand to
the district court with directions to consider Spreitz s Martinez remand motion and
supporting evidence.

Respectfully submitted; February 25, 2021.
Jon M.Sands

Federal Public Defender
Timothy M. Gabrielsen
Assistant Federal Public Defender
407 West Congress Street, Suite 501
Tucson, Arizona 85701

Telephone: (520) 879-7614
tim_gabriel^en@fd.org

By: ^/^/^•(/^.; ^^ -^—
/-<^
Ak
^y^^/
Counsel of Record for Petitioner

